           MEDICAID DRUG USE REVIEW
                              PROGRAMS
             LESSONS LEARNED BY STATES




                   p.sSWCe$
              #+
                              %
                                  ‘Y
             #’


                   $
             2                         ~      GIBBS BROW
             s                         Inspector   General
             %

I
              %++,
                   %daa
                   2                           MAY 1995
                                             OEI-01-9’24)0800
                                         .

    –—
     .–—
                       OFFICE OF INSPE~OR                    GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Setices (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVMXJATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Participating in this project were the following people:

Boston Region                                                          Headquarters

Barry McCoy                                                            Mary Beth Clarke
Craig Schneider

For additional copies of this report,please contact the Boston regional office by telephone at
(617) 565-1050 or by fm at (617) 565-3751.
    Depatiment of Health and Human Setices

           OFFICE OF
      INSPECTOR GENERAL




     MEDIc, MD DRUG USE REVIEW
             PROGWMS

        LESSONS LEARNED BY STATES
/




                      ‘	 ~      GIBBS BROW
                         Inspector   General
         ‘+?+.    L
         “>>%  @a              MAY 1995
                             OEI-01-W-Wm
              EXECUTIVE                         SUMMARY


PURPOSE

This study identifies lessons the States have learned in implementing the Medicaid
drug use review requirements established by Congress in 1990.

BACKGROUND

The Omnibus Budget Reconciliation Act of 1990 (OBRA 90) requires State Medicaid
agencies to implement comprehensive drug use review (DUR) programs to improve
the quality and cost-effectiveness of drug therapies. Drug use review is a process for
identi&ing (1) potential safety problems with prescriptions, prospectively, at the time
of dispensing and (2) questionable patterns of prescribing and/or dispensing problems
retrospectively through reviews of prescription claims data. The third component of
drug use review is programs for educating physicians and pharmacists about
appropriate drug therapies.

This report begins by identifying nine important lessons learned by States as they have
developed and implemented DUR programs. Each lesson includes vignettes that
speci& ways in which some States have applied the lesson. We include those that
seem to be sufficiently different and important to warrant the attention of other
States. This report concludes with discussion of several challenges that, if not
addressed, could undermine States’ DUR efforts in the years ahead.

We drew on three major sources of information for the lessons, vignettes, and issues
discussed in this report: the literature on drug use review discussions with many State
and Federal DUR officials and review of their internal documents; and on-site visits to
DUR programs in six States.

LESSONSLEARNED BY STAIZS

Lesson 1:    Develop credibledruguse criterik

Credible criteria provide an essential foundation for DUR programs. Physicians and
pharmacists must have confidence that the criteria are based on professional expertise,
                                                                               .
      experience, and up-to-date, science-based research. States ~ould:

      establish guidelines for the States’ drug use review boards to use when

      reviewing criteria; and

      obtain feedback on criteria from many sources.





                                           i
Lemon 2:      Be selective in devehpihg and app&ingdruguse cri!eria.

States’ review of the voluminous pharmacy claims can easily generate extensive data
and result in information overload. Reviews need to be selective. States could:

  F    focus criteria on clinically important areas; and
  k    apply only a few criteria at one time.

Lesson 3:     Apply druguse cnkria witha high degree of specijicdy.

States also risk information overload if their criteria are too broadly defined. Highly
specific criteria can reduce the number of less significant alerts. States could:

  b    modi@ or eliminate criteria after reviewing the volume of alerts; and
  k    conduct careful pilot tests of the criteria before implementation.

Lesson 4:     EXmnine patternsof thug use,presm”bin~and dispensing

Pattern analysis can be valuable for identifying those providers and patients warranting
intervention and in maximizing the effectiveness of the DUR effort. States could:

  �    establish relational data bases to give a broad picture of drug use; and
  b    develop profiles of drug use for patients, physicians, and pharmacies.

Lesson 5:     l%esent   data in waysthatfacilitate aruz~siyand comectiveaction.

To be useful, the basic data generated by DUR reviews must be presented to program
officials and to the providers in ways that are easily understood. States could:

 F     display data for providers that compares them with their peers; and
 �     report performance data in context.

Lesson 6:	   Intervene withprovidimhavingquestionablepnzwibing and diyxmsing
             pmctices in waysthat motivatechange.

The DUR programs need to intervene in ways that are feasible yet effective in
influencing providers’ drug therapy practices. States could:

 k     tailor intervention letters to the individual and include credible and compelling
       information; and
 �     invest selectively in personal contacts with providers.
Lesson z      Foster compliance wi!hpatient counselingrequirements.

Counseling patients about their drug therapy is important in encouraging appropriate
drug use. Yet pharmacists confront many obstacles to counseling, and States have
difficulty monitoring pharmacists’ compliance with the law. States could:

  F    use pharmacy inspectors as patients to assess compliance;
  �    survey pharmacists and patients by mail; and
  F    take punitive actions when necessary.

Lesson 8:	    Educatephysiciansandphurmacirtsproactivelyabo~ appoptiate prescribing
              and dkpenshg practices.

States emphasize the educational nature of DUR programs and promote this message

with providers having questionable practices. But States can also adopt preventive

approaches by educating the larger provider community. States could:


  k    mail special messages to all providers;

  �    target special training to specific provider groups; and

  �    use the information superhighway.


Lesson 9:     EMabhkhon-going resea~h @orts to help guide the progranz

States rely on a limited knowledge base to guide them. Applied research efforts can be

important for helping DUR programs operate efficiently and effectively. States could:


 �     evaluate their screening criteria;

 k     examine sources of alerts by practice setting and location; and

 �     assess effectiveness of different types of educational interventions.


M4.K)R CHALLENGES FACING STAIE DUR PROGRAMS

States have been moving ahead with their DUR programs through largely uncharted
territory. They have crafted many different approaches to DUR and have learned from
their experience. At the same time, DUR programs face several challenges, which, if not
adequately addressed by State and Federal leadership, could undermine the effectiveness
of their efforts in the years ahead.

Privacy safeguards.

  �     Do the programs give adequate attention to privacy safeguards?

The widespread use of large, automated systems for reviewing Medicaid beneficiaries
medical and drug histories raises important privacy issues concerning what data should be
collected and who should have access to these data and under what conditions.



                                             ...
                                             111
Protection of poor performers.

   b	   Does the educational focus of the programs unnecessarily inhibit efforts to protect
        beneficiaries ji-om poorly pe~orming providers?

State DUR programs emphasize educational approaches for improving providers’
prescribing and dispensing practices; they rarely pursue punitive actions. The DUR
programs appear to lack interventions, falling in the middle of this continuum, that could
help in situations in which a provider’s knowledge base or practice skills raise serious
questions yet do not warrant referral for possible disciplinary action.

Education of patients.

   b    Are the programs su.ciently   focused on patient education?

State DUR programs focus almost exclusively on educating physicians and pharmacists.
Helping patients become better informed about their drug therapies receives very little
emphasis, even though the health care system is being transformed by the growing
influence of patients in decision making about their medical care.

Dependence on vendors.

  �     Are the programs too dependent on the vendors serving them?

Most frequently, States rely on vendors to provide the screening criteria, the computer
software, and other technical know-how essential to DUR efforts. This expertise has been
invaluable to DUR programs; yet the heavy reliance on vendors raises issues about
whether States have enough expertise in-house to ensure that the vendors’ work meets the
States’ own particular needs.

Problems with Medicaid claims data.

  b	    Do inaccurate, incomplete Medicaid claims data bases serve as a significant constraint
        to the programs?

Problems with incomplete and/or inaccurate data surfaced in virtually every State we
contacted. They can make it difficult for DUR programs to be efficient and effective.

Validity of cost-savings estimates.

  b     Are the programs claiming cost savings that rest on weak foundations?

Estimating   cost savings for DUR programs is essential but highly complex and resource-
intensive.   The HCFA has been developing guidelines to help the States prepare
meaningful    estimates. Yet the situation remains one in which the estimates can be
misleading   about the impact of the DUR programs.


                                             iv
Balancebetween cost and quality.

  b    Are the cost-saving and quality-of-care objectives of the programs in balance?

Both objectives are vital to DUR programs. Yet given the cost pressures and the
complexity of decisions around criteria, screens, and interventions, States face significant
challenges in ensuring that the programs, in fact, balance both objectives.

Implications of managed care.

  �	   Are States developing a DLIR infrastructure that will become increasingly in-elevant as
       Medicaid managed care enrollment escalates?

Thus far, State DUR programs have given little attention to this significant change. Yet
the implications for them are profound. Medicaid beneficiaries who enroll in these plans,
many of which provide prescription drug coverage, become the responsibility of the plans.
Their drug use, and the prescribing and dispensing practices of their health care providers
are then, in effect, beyond the reach of the States’ DUR efforts.




                                            v


           —
                                 TABLE                   OF CONTENTS


                                                                                                                        PAGE

     ‘m~s~y.......                                           “.. 00 O. . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


     ~ODU~ON                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . I


     _ONS            ~D              BY STA~

                 Credible drug use criteria . . . . . . . . . .
                 ‘elective application ofcriteria. .-ooo:;:~””””””-”.......                             . . . . . . . 4

                 Specifici~ ofcriteria   ........                         . . . . . . . . . . . . . .

                                                                                                                             !.




                 Patterns ofuse . . . . . . . .          ““””””””-”.............;:                        ~~~~:~ . 6

                                                                                                                        8

                Presentation  ofdata.    o. so:;;:      ; “””-”--””-”..........,..                       ,..OOO

                                                          . . . .. . . .                                               10

                lnteNentionS With indi~dua]providers             . . ..~:::”””””           ““” ‘.....         . . . . 12

                ‘atient coLlnSeling requirements       . . . . . ..O..            ““” ”- ””. s . . . . . . . . .
                Prow”der education . . . . . . . . . .                     . . . . . . .

                                                                                                                      15

                Research . . . . ..o. .o               ““”- ”-”. .. I;: I; R;~j; ;; I;~j;                    ;; I ;   17

                                          . . . . ..O . . . . . . .                                                   19

                                                                    . . . . .. . .. . . . . .
                                                                                                . . . . . . . . . . 21

    MAJOR      -~NG~              FACING STA~ DUR PROGWS


       k
              Privacy safeguards           ..........
       b	                                        . . ...> .
              ‘rotection ofpoorperformers     ..oc .m. .”-” ”-”- . s o . . . . . . . . . . . . . .                           23

       �
             Education ofpatients o . . .. aa . . .            . s ”. . . . . . . . . . . . . . . . . . . . .
       �                                                                                                                    23

             ‘ePendence onvendorso.       ..oo .. :: ”” -” ”” ”-. s . . . . . . . . . . . . . . . .

      F                                                                                                                     24

             ‘rOb]ems ~thMedicaidc]aims       data me. .. .. ...O
                                                                . . .. .. . ” ”--------       ........                      24

      �
              ‘a]idiT OfcC)st-Satings estimates    .. . . .. ..        ““” ”” ””” o . . . . . . . . .                      25

      E

             ‘alance between cost andqualiV        o...         : : ”””. . . . . . . . . . . . . . . . .
      �                                                                                                                    25

             implications ofrnanagedcare.       .me .ao~l:”         ““” . . . . . . . . . . . . . . . . .
                                                                             ...............                               26

                                                                                             ........                      26

APPENDIx

A    Notes . . . . . . . . . .
                                 .....................
                                                       . . . ..O . . . . . . . . . . . . . . .
                                                                                               . . A-1

                              INTRODUCTION

    PURPOSE

    This study identifies lessons the States have learned in implementing the Medicaid drug
    use review requirements established by Congress in 1990.

    BACKGROUND

    State Medicaid programs have been reviewing the outpatient drug use of Medicaid
    beneficiaries for many years. These efforts, while particularly useful in identifying fraud
    and other illegal activities, have been piecemeal and incremental. In 1990, the Omnibus
    Budget Reconciliation Act (OBRA 90) changed the picture considerably.1 It required
    States to take a much more ambitious approach to Medicaid drug use review (DUR) to
    ensure better patient care through drug therapies that are appropriate, necessa~, and
    cost effective. Specifically, it required States to implement, by January 1993, programs


           prospective drug use review (pro-DUR) and counseling by the pharmacist that occur
           before each prescription is dispensed to help ensure appropriate drug therapy for
           the patient;

           retrospective drug use review (retro-DUR) of pharmacy claims data that identify
           patterns of physician prescribing, pharmacist dispensing, and patient drug use that
           may be inappropriate; and

           educational outreach that educate providers about appropriate    drug therapies.

    The pro- and retro-DUR reviews are guided by criteria and standards adopted by States
    as benchmarks for determining the appropriateness of drug therapies for particular
    conditions. Prescription claims are screened against these benchmarks. State DUR
    boards, composed primarily of physicians and pharmacists, have broad responsibility for
    reviewing drug review criteria, for guiding the reviews, and for directing interventions and
    other educational efforts with pharmacists and physicians.

    The States have faced many challenges as they have struggled with mounting their DUR
    programs. They have learned some important lessons along the way. No one State, it
    seems to us, serves as a model for how to implement a program from beginning to end.
    Yet, we and HCFA’S Medicaid Bureau, with whom we collaborated in designing this
    study, think some of the lessons learned by the States can be instructive to other States.
    In this report, we focus on these lessons. We intend it to seine as a resource document
    offering vignettes of some States’ experiences so far. Although it is not a definitive
    assessment of what does or does not work, we expect the report can help States learn
    from each others’ experiences and can contribute to their developing effective DUR
    programs. We have geared the report not to the technical specialists, but to those State


                                                  1


—
administrators, legislators, board members, and others who deal with DUR policies more
generally. For this reason, we avoid detailed discussion of the technicalities of the review
process.

We begin this report by identifying nine major lessons that have been important in the
States’ early implementation efforts. Some lessons apply to both prospective and
retrospective components of a DUR program; some are more applicable to one than the
other. All are experiences that States described to us or to HCFA, some approaches
may, in fact, no longer be used. We begin each lesson with a brief introduction that
highlights its importance for the States’ overall DUR efforts. Then, for each lesson, we
present selected vignettes that specify ways in which States have applied the lesson. We
conclude the report by discussing several unresolved issues that, if left unresolved, could
undermine States’ DUR programs in the years ahead.

MEZUODOLOGYMD             DEFINITIONS

We relied on three major sources of information for this report:

   E an examination of the literature on drug use review, including pertinent research
studies, and relevant government documents such as the OBRA 90 legislation, its
regulations, and States’ own internal reports and their annual reports to HCFA,

   * discussions with many State and Federal DUR officials, including participation      in
three national meetings of State Medicaid DUR program staff, and

  E on-site visits to DUR programs in six States:      Colorado, Illinois, Iowa, Maryland,
Massachusetts, and Washington.

The vignettes included here are ones that appear to have potential in multiple States,
although we recognize that what works well in one State may not work so well in another.
The criteria we used in selecting the vignettes were rigorous yet inherently qualitative.
They included: (1) the judgments of the Federal and State officials with whom we
conversed; (2) our own review of States’ experiences and their supportive materials;
(3) our consultation with experts having substantial experience with DUR efforts; and
(4) our own judgment of whether a particular approach or item is sufficiently different
and important to warrant the attention of other States based on our own considerable
experience over many years in studying pharmacy issues.z

                                                       Standardfor Ihspec?ionsissued by
We conducted this study in accordance with the Qz.uzZizy
the President’s Council on Integrity and Efficiency.




                                              L
     3


——
                  LESSONS                 LEARNED                      BY STATES�




           Credible criteria provide an essential foundation to an ef$ective drug use review program.
          Physicians and pharmacists must have confidence that they are based on professional
           expertise, prior experience, and up-to-date science-based research.3 t2therwise, the rationale
          for the effort is likeij to be questioned and compliance undermined.

                 Establishing Guidelines for a DUR Board.      State DUR boards provide a vital focal
                 point for ensuring that criteria used in pro- and retro- DUR efforts are credible.
                 Many of the boards have become active in assessing the appropriateness of the
                 criteria developed by vendors. Colorado facilitated such an assessment by
                 developing a checklist for DUR board members to use in reviewing criteria (see
                 box).


                                   CHECKLISTFOR REVIEWINGDUR CRITERIA

                       Amongthe questionsposed in Colorado’schecklistare the following:

                         ��   Who developed the criteria? Did they get outside reviewfrom practicing
                              physiciansand pharmacists?

                         ��   How adequate is the literature review? What are their sources? Did they look
                              for unlabeleduses supportedby scientificliterature?

                         o	   How adequatelyis the literature interpreted? What is the qualityof the
                              evidence? Did they choose the most or least restrictiveinterpretation? Did
                              they look for efficacyor cost-effectivenessstudies? Did they considerthe
                              population limits of particularstudies?

                         ��   If a drug group is used for manyclinicalsubsets,are they explicitabout the
                              domain of the criteria for each subset? If a subset has differentdosageor
                              duration recommendationsfor use of a drug, is this addressedin each criteria?

                         ��   For drug interactions,are the definitionsfor “interaction”and “clinical
                              significance”clear? Do they note the dosagesat whichinteractionshave been
                              documented? Do they considerthe sequenceof usingthe drugs?

                         ��   Can use of the criteria set assistreviewersin suggestingappropriate therapy?
                              Other drugs, therapeutic maneuvers, and/or other therapeutic modalities?




                                                            4



—.   .—                  —
E    Obtaining Feedback on Cfitetia. Anopenprocess          alloting widespread
     participation canpay big dividends. Itcanprovide       aDURprogram       with valuable
     insights in developing criteria. It can also foster broad acceptance of the resulting
     decisions. Many boards have moved inthisdirection         byseeKng and drawing on
     the advice of professional associations, medical and pharmacy schools, drug
     manufacturers, and individual experts in clinical areas under consideration,

     The process, moreover, can be constructively viewed as a continuing one, involving
     feedback not only in developing criteria, but also in reevaluating them over time.
     The Texas program offers a good case in point. It modified its criteria on the
     concurrent use of two antidepressant drugs after taking into account physician
     responses to its intervention letters. In those responses, physicians whose drug use
     practices were being questioned complained that the maximum dosage levels
     allowed by the State were too low. After consulting with experts, the DUR
     program officials agreed and allowed for higher dosages that were more consistent
     with current thinking about appropriate dosage levels.

     Obtaining feedback on criteria, whether at the outset or after implementation, is
     no less important for DUR criteria directed to pro-DUR than to those concerning
     retro-DUR. This is important to note because pro-DUR criteria often have been
     applied all at once, with little review and testing and with refinements made only
     after numerous provider complaints.

k	   Facilitating Feedback through a Ballot Process.    The Virginia program used a
     mailed ballot to facilitate reviews by the DUR board as well as by medical and
     pharmacy associations, schools, and drug manufacturers. The reviewers received a
     draft set of criteria for comment together with a preprinted form with check boxes
     for responding to questions and selecting options. The form also included room
     for reviewers to provide narrative comments. Shortly thereafter, reviewers
     received a second ballot of the revised criteria. These became the official criteria
     if no other comments were offered. This check box, ballot approach, program
     officials reported, contributed to more consistent and thorough feedback and to
     easier synthesis and analysis of reviewer comments.




                                            J
       Without carefi.d planning DUR programs can easily result in information overtoad. l%eir
      review of pharmaqy claims can generate extensive data that severe~ taxes the limited
      resources of the program and the good will of the practicing physicians and pharmacists.
      Some States run monthly screens on all their criteria and produce exceptions far exceeding
      those that they can address. An antidote to such a condition k to gear the program to
      relatively few drug use criteria in clinically important areas. This applies to both on-line
      prospective DUR efforts and to retrospective eflorts. It is particularly important for
      retrospective efforts, which seek to identifi problems after the fact and which call for follow-
      up by program stafi to pursue a more selective approach to applying established criteria in
      order to avoid the forernentioned consequences ;f’infonnatz”on overload.

      b	     Focusing on Clinically Important Areas.      What bases are to be relied upon in
             defining “clinically important areas?” Wisconsin, in developing about
             20 retrospective criteria, used the following bases to guide its decisions:
             (1) indications in the clinical literature of frequent misutilization, (2) likelihood of

             misutilization having a significant impact on quality of care, and (3) likelihood of it

             having a major impact on Medicaid expenditures.


             Colorado, in developing the eight topics or “modules” that guided its retrospective

             effort, took a somewhat different approach. It, too, addressed cost concerns by

             focusing on drugs that represent a disproportionate share of Medicaid pharmacy

             costs. But in addressing quality concerns, it focused on drugs with high potential

             for toxicity and on the use of medications in high-risk populations. The latter

             included drugs taken by pregnant women and neuroleptic drugs taken by the

             elderly.


             Screening Paid Claims Strategically. Among the approximately 20 criteria

             developed by Wisconsin, it selected 1 to 3 each month for screening against paid

             claims. The State took this approach because it wanted to limit the alerts

             identified through the screening process to those it could reasonably expect to

             follow up with intervention letters to the providers. With a manageable number of

             alerts, it was also able to produce intervention letters that were tailored to the

             potential inappropriate drug use identified.


             Colorado followed much the same approach, with a similar rationale. In its

             screening of paid claims, it rotated among its eight established modules (a ninth

             was added recently). This meant that it was highly unlikely that any one module

             (for example, drugs in pregnancy) would be applied more than once in a year and

             might well not be applied for close to 2 years.





                                                      6



—..
Washington’s intent to conduct its retrospective reviews strategically led it to
develop what ithascalled     the’’onion’’ approach. Through this approach, the
program would start out by identifying the ’’onion’’--asignificant therapeutic
concern based on analysis of claims data that surfaces drugs of high risk, high cost,
and/or high use. Subsequently, and gradually, the program narrows the focus of its
analysis by identifying particular layers of the onion for further screening and
review (see box).



                           THE ‘ONION” APPROACI-k

                   HIGH-COST ANTIBIOTIC SUSPENSIONS

                   Through their screening efforts, Washington
                   officials identified high-cost antibiotic
                   suspensions as among the most frequently
                   prescribed and most expensive drugs paid for
                   by the Medicaid program. Upon further
                   review, they found that these drugs were
                   being used frequently for treating otitis media
                   (middle ear infection) in children. This
                   practice raised questions because the State’s
                   DUR criteria ranked these suspensions as the
                   third drug of choice for these children. This
                   led to further screening to identifi the
                   dimensions of the problem--in particular, to
                   identi$ the physicians writing prescriptions
                   for the suspensions, their patient caseloads,
                   and the volume and type of prescriptions they
                   wrote. These data formed the basis for
                   subsequent analysis of prescribing patterns
                   and of patient drug use.
Being selective in choosing and applying criteria k essential, but in itself insufficient in
averting the dangen of information overload. If States fail to incorporate highly specific
problem definitions into the computer algorithms thq use to screen claims, thty are quite
likely to generate many false positives and many more alerts than they or providers can
reasonably address. Indeed, expen”encehas shown thk to be the case in States that use
broadly inclusive definitions (highly sensitive) in their screening criteria. In one such Statej
the on-line prospective DUR system has been identifying alerts at the rate of 20 percent. This
means that one out of every five electronic claims that pharmacists submit result in an
immediate computerized alert suggesting a possible problem with the prescription. In another
State, the retrospective DUR ystem has been generating 50,000 alerts a month. Of these, the
program has been randomly selecting 1,500 to 2,000 for review to determine #the providers
should be contacted.

F	     Reducing the Number of Unnecessary On-Line Prospective DUR Alerts.            During
       the early period of its on-line system, Pennsylvania was experiencing an alert rate
       of about 20 percent. Too many of these alerts were suspected to be false positives.
       After verifying some of the alerts as being false positives, the State took action to
       make the alerts more meaningful and to reduce the number of alerts to a more
       manageable level (about 10 p&-cent) (see box).


                            EFFORTS TO REDUCE PRO-DUR ALERTS

             Pennsylvania modified its screening criteria in three areas:

             �	    Claims for children were often triggering minimum dose alerts. Upon
                   inquiry, the State found that the low-dose edits, which had been
                   developed for adults, were being applied to children. It decided to bypass
                   them for children’s prescriptions.

             �	    The minimum/maximum dosage screens for topical medications, such as
                   ointments, were generating many false positive-alerts. The State dropped
                   them in these instances because they were irrelevant.

             �	    The computerized algorithm concerning therapeutic duplication for
                   psychotherapeutic drugs was generating too many unnecessary alerts. The
                   State tightened the problem definition so that alerts have been generated
                   only if the prescriptions involve different pharmacies or different
                   physicians.




                                                    8

     Virginia contributed to a reduction of DUR alerts by deleting all the low-dose edits
     and by keying alerts on drug-drug interactions to only the two most serious levels
     of clinical significance identified in the criteria.

     Illinois also eliminated low-dose edits as a way of removing clinically insignificant
     information from its system and of reducing its prospective DUR alert rate. It
     found that such edits were often being triggered by the common, acceptable
     prophylactic use of antibiotics 1 or 2 days before a surgical or dental procedure.

     Texas sought to avoid the start-up problems other States have experienced with
     their on-line systems by conducting extensive pilot testing to ensure that the alerts
     generated by its system were significant ones. It involved nearly 80 pharmacies in
     this effort.

�	   Containing the Number of Retrospective DUR Alerts. In actuality, a high-
     specificity approach is one that will tend to give a physician the benefit of the
     doubt in borderline cases. For example, as a representative of the Colorado
     program noted, this might mean that in cases where a blood level might ideally be
     monitored within 2 weeks of starting a drug, the screening criterion might allow a
     month to go by before generating an alert.

     In the same context, Wisconsin, once it identified alerts concerning its criterion for
     H2 antagonists (a class of drugs for treating ulcers), would not send an intervention
     letter to a provider unless he/she had alerts generated for at least three patients
     during the 6-month review period. In its FY 1993 annual report, it elaborated that
     such a threshold was “established to identify potential patterns of drug use
     practices, improve the cost-effectiveness of the intervention and reduce practitioner
     and pharmacist aggravation caused by frequent receipt of DUR letters.”

F	   Relying on the Computer to Trigger Intervention Letters. Applying criteria with a
     high degree of specificity can minimize the need for a review panel to review each
     alert to determine if an intervention letter should be sent. But we found only one
     State, Wisconsin, that actually eliminated that review. Except for a brief
     administrative review to identify any programming errors, it relied on the computer
     to identify the alerts and the interventions. The rationale was that this approach
     reduces the subjectivity associated with manual reviews and minimizes the lag time
     between identification of alerts and intemention with the provider.




                                            9

A DUR program offers a prime oppo~nity to identijj patterns of questionable practices, be it
by patients or by providers. l%rough retrospective reviews, which can draw on paid claims
data as well as on the record of computerized alerts generated by prospective on-line review
systems, a State can examine drug use longitudinally. It can profile the drug use practices of
patients, encompassing the various physicians andior pharmacies they visit and encompassing
various drug use categories and/or disease states. It can also profile the prescribing practices
of physicians and the dispensing practices of pharmacies, focusing on patients served over a
period of time and on various drug categories and/or disease states. The information
obtained through such pattern analysis can be of major value in directing interventions to
providers or patients warranting serious attention. And, not least of all, it can offer
compelling evidence of the need for such attention.

�	     Establishing a Broad Relational Data Base. A necessary starting point for useful
       pattern analysis is establishing a sufficiently inclusive data base that links key data
       elements. Colorado, for instance, has developed a relational DUR data base that
       incorporates information on diagnosis, procedure, hospital stay, patient
       demography and history, prior authorization request, provider, and, most recently,
       Medicare crossover data.

       Illinois has incorporated into its medical history file of Medicaid beneficiaries the
       alert information generated from its on-line prospective DUR system. This adds to
       the retrospective program valuable additional information in profiling not only
       prescribing practices but also dispensing practices.

�      Developing Patient Profiles. This is the most common type of pattern analysis
       conducted by State DUR programs. It serves to identify patients who may be
       experiencing drug therapy problems due to their visiting multiple physicians and/or
       pharmacies. More often, it serves to identify individual physicians who may be
       prescribing inappropriately.

       Massachusetts has found it helpful to append a detailed patient history profile to
       the intervention letters it sends to physicians. For instance, in a recent letter to a
       physician, it identified two drugs that the physician had prescribed for a patient on
       a chronic basis, contrary to standard practice to use them on a short-term basis.
       The attached two-page patient profile identified all drugs prescribed for the patient
       over a period of about 14 months; the strength, quantity, and days-to-refill for each
       drug; the pharmacies and physicians involved; and the various diagnoses made.
       Easy-to-read summary information highlighted the two interacting drugs and
       indicated that, in the review period, the patient had seen two physicians and used
       five pharmacies.



                                               10

            Developing Provider Profiles. Washington’s initiative on high-cost antibiotic
            suspensions focused on the development of physician profiles. The State
            screened claims to identify physicians prescribing the high-cost antibiotic for
            children who were younger than 8 years of age and who had a diagnosis of
            otitis media, to determine the volume and range of the antibiotics these
            physicians prescribed for this diagnosis; and to identi~ the geographic
            location of their practices. Once it aggregated these data, it revealed the
            following patterns:

            Forty-five percent of the prescriptions for these high-cost drugs were written
            by 124 (6 percent) of those physicians prescribing;

            Of all the high-cost antibiotic prescriptions written by these 124, 20 percent
            of them were written by 24 of these physicians.

            The heaviest prescribing of these drugs occurred in three areas of the State.

     Colorado has regularly developed physician (and patient) profiles to help its review
     committee determine whether to send an intervention letter to a physician and to
     help a physician receiving such a letter understand the rationale behind it. The
     following profile developed for a physician specializing in family practice illustrates
     this: over a period of 1 year, he prescribed drugs for 50 patients in the review
     category. Of these patients, 7 were categorized as having a total of 12 “hazard
     problems” because of their drug therapy, with none of the problems falling in the
     most serious of the 3 hazard categories. For five of these seven patients, the
     appropriateness of the drug therapy was questioned because the diagnosis was
     unclear and for two because the dosages used were contrary to the State’s drug use
     criteria. A graph on the provider profile indicated how this physician compared
     with his peers (other specialists in family practice) in terms of the number of
     prescribing problems identified.

b	   Developing Nursing Home Profiles. In Wisconsin, where about one-third of all
     Medicaid prescriptions have been for nursing home residents, the State for the past
     8 years prepared summary reports of nursing home drug use. The report, sent
     semi-annually to each nursing home, included a number of measures of drug
     quality. Each home, which was peer grouped according to the primary medical
     conditions of its residents, received data comparing it with its peers for each
     measure. The thrust of the effort was educational. With the information provided,
     each nursing home could examine how its pattern of drug therapy compared with
     that in other homes having similar populations and with its own prior practices.




                                           11

l%e basic data that DUR programs depend on emerge from the screening of claims. This
screening process typically focuses on therapeutic categories andJor disease states for which the
State has developed DUR criteria. And it is aimed at the identification of problems, such as
drug-dreg interactions, drug-disease contradiction, and therapeutic duplication. How
effectively these problems are then addressed can be greatly in.uenced by the ways in which
the data obtained fi-om the screens are presented to Medicaid agency officials, to the DUR
Board, and perhaps most importantly, to the fi-ont-line providers who are prescribing and/or
dispensing drugs. Eflective presentation calls for meanin@d contex~ not just raw numbers.
Such context k aflorded, for example, when providers’ pe~onnance k displayed over a period
of time andior is compared to the pe~ormance of peers. Such context k also afforded when
the number of alerts generated by the screening process is displayed along with the number of
claims and patients reviewed for pa~”cular drug categories and problem types.

b	     Encouraging Change through Peer Comparisons.            Consider as a case in point a
       sample summary profile report sent to a Wisconsin nursing home. This report,
       which is for a facility classified in a “geriatric” peer group, begins with basic
       background information comparing the facility to others in the peer group in terms
       of the age of beneficiaries, the level of care they receive, and their main diagnoses.
       Then it provides drug use information for 47 drugs or categories of drugs, using
       an * to designate any situation where the facility is greater than 2 standard
       deviations over the peer group average. Following are a few examples:



                         PEER COMPARISONS DRUG USE IN NURSING HOMES

          Drug   Group            %   of   Recipients         $$/Reeipient   Rx/Recipient

          H2 Antagonists
            Your Facility                    32.7*                   $238          4.6
            Peer Group Average               15.4                    $222          4.2

          ConcurrentUseof NSMIDs
           and H2 Antagonists
            Your Facility                    10.2                    $433          9.0
            Peer Group Average               2.9                     $273          6.3

          B-12 lZtamins
            Your Facility                    18.1*                   $37           5.6
            Peer Group Average                4.0                    $19           2.8




                                                        12

Clearly, in this case, the data display encourages the nursing home leadership to ask
why so many more of its residents are on H2 antagonists and B-12 vitamins than
residents of other homes. The implication is not that the home should necessarily
change its practices, but rather that it should at least confirm for itself the
appropriateness of its practices if it does not change them.

Another example of the use of peer group comparisons is the letter that Washington
sent to the top 24 users of antibiotic suspensions in treating children with otitis media.
Each letter included a table that profiled the physician’s prescribing pattern over the
course of a year in treating such children and, where possible, comparing it with other
physicians in the State. It gave particular attention to a costly drug (we call it
Drug X) that was not the State’s first drug of choice under its DUR criterion.
Following are excerpts from the table sen~ to one physician:


                                PEER COMPARISONS:
                    ONE PHYSICIAN’S USE OF HIGH-COST              ANllBIOTICS


    PrescribingPattern                  Your Practice     Peer Average

    Ranking amongst prescribers on                #1
     total number of RX for Drug X

    Number of patients treated under              600
     age 8

    Number of patients with otitis media          205

    % of otitis to total clients                  48%            28?40

    ?4.   of Drug X to total antibiotic drugs     4770           31%

    % of Drug X for otitis compared to all
    antibiotic RX for otitis                      73%            58%

    Number of times Drug X only was used 137

    Number of times 1 other RX was used
    before Drug X                                 20

    Number of times 2 or more RX used
     before Drug X                                    6

    Number of times Drug X was used first
     and then another RX was tried                42




                                                13

>	         Assessing the Effects of Prospective DUR Alerts. Maryland started its on-line
           pro-DUR program in Janua~ 1993. From the beginning, it has produced a
           monthly report summary of the on-line alerts generated to pharmacies in
           response to claims they submitted electronically for payment. These reports
           distinguish “pro-DUR alerts,” which represent advisory information to a
           pharmacy, from “Early Refill Alerts,” which represent a claim denial unless the
           State overrides the denial upon appeal from the pharmacy.

           Following is information from Maryland’s 1993 annual report to HCFA:


               COMPARISONS           OVER TIME        CLMW?JPRO-DUR             ALERTS


     Month Total Claims              Pro-DUR               Early Refill               All Alertsas
                                     Alerts                 Alerts                     %Ofclainls

                            Total          ‘IoNot Filled   TotaI      %  Overridden
                                                                      by State

     Jan     311,593        51,243         41.9            11,421   14.5              20.1
     Feb     30~381         46,614         28.5            1Q521    14.6              18.6
     Mar     39~132         49,387          1.3            15,102   14.3              16.2
     Apr     325,182        64,458         23.4            13,621   16.7              24.0
     May     325,372        49,986          6.9            16,281   15.8              20.4
     Jun     318,442        41,114          1.8            12,757   16.2              16.9
     Jul     308,065        42257           7.9            12,354   1%2               17.7
     Aug     384,928        53,594          6.6            16,603   17.9              18.2
     Sep     31~691         42,661          2.1            12,682   16.9              1%4
     Ott     335,197        43,155          1.7            14,652   15.8              17.2
     Nov     408,667        49,212          1.6            16,836   17.5              16.2
     Dec     343,636        45,255          1.4            14,705   16.3              IZ4




           These monthly reports offer valuable perspective to the DUR board and to the
           Medicaid agency leadership. Most pointedly, they show that early in the first
           year of implementation pharmacies often responded to the nonmandatory alerts
           by not filling a prescription; but, by year’s end, they had settled into a pattern
           where they seemed to pay little attention to these alerts. Throughout the year,
           the level of all alerts--mandatory and nonmandatory--remained       quite steady in
           the 16-17 percent range, as did the level of State overrides of early refill alerts.




                                                    14

l%e essence of DUR programs ii to improve the prescribing and dispensing practices of
providers. To do that, the programs must intervene--whether through letters, telephone
dticussions, orpemonal visits--in ways that influence providers to change their practices,
where necessa~, for the long term. Even # States do everything else well, the overall DUR
effort can fail if the programs lack an effective intervention strategy. The challenge to
State DUR programs has been to adopt approaches that are feasible, yet effective in
getting the attention of providers and motivating changes in their prescribing behaviors.

b	        Designing Compelling Letter Interventions. Sending letters to those with
          questionable practices is the most common intervention of retrospective DUR
          programs. It is also one that can be easily dismissed by providers unless States
          carefully tailor their approach, Montana has personalized its letters to
          physicians and pharmacists and included specific information about the patient
          in question (such as a claims-constructed medical history) and suggestions for
          drug therapy alternatives. The letters bear the signature of the medical director
          of the Montana/Wyoming Foundation for Medical Care, the Medicare Peer
          Review Organization, which contracts with the State for the DUR education
          program.

          Some States write physicians not only about particular patients, but also about
          the physicians’ own prescribing practices. Recently, 700 physicians in
          Pennsylvania received “packets” of information about their prescribing-. practices
          for H2 antagonists (see box).


                               A LETfERINTERVENTION
                                                  TOPhysicians
     Thepacketssentto Pennsylvania
                                physicians
                                        withquestionable
                                                      prescribing
                                                                forH2antagonists
                                                                              included
     o        A personalized
                           lettersignedbythePresidentof thePennsylvania
                                                                     MedicalSociety(PMS);
     o        A 12-monthprofileof thepatient’sdruganddiagnosis
                                                             historythatidentifiestheprimaryand
                      therapeuticproblemsandcitesrelevantreferencesin themedicallheratur~
              secondary
     o        Reprintsofrelevantarticlesappearingin recentmedicaljournalsincluding
                                                                                 theStatementof the
              NationalInstitutesof HealthConsensus Conference;
     o	       A one-page,multi-colored
                                     flyerforphysicians
                                                      to returnto PMSrequestingadditionalgeneral
              information,          consultation
                         professional                                on thePMSstaff,or laminatedwail
                                               witha clinicalpharmacist
              chartsor pocketcardsforeachofninecommonly                          theH2antagonists.
                                                          useddrugclassesincluding




                                                       15


          —
     The letters came from the Pennsylvania Medical Society, which runs the DUR
     education program for State Medicaid agency. Both agencies believe this
     arrangement enhances the credibility of the educational interventions with
     physicians.

     Both Montana and Pennsylvania include “RSVP” forms with their intervention
     letters for the physicians to reply to the drug therapy issue in question.
     Pennsylvania has sent follow-up letters via certified mail to those physicians not
     responding to the initial letter. These States have reviewed the immediate
     RSVPS from the physicians and have followed up with subsequent claims
     analysis after 6 months, even 1 or 2 years later, to see the extent to which the
     intervention influenced long-term changes in the physician’s prescribing
     behavior.

�	   Investing in Personal Interventions. These types of interventions, whether
     telephone discussions or personal visits, are costly and labor intensive.   States
     use them more selectively than letters.

     Both physicians and pharmacists in Illinois can receive telephone calls from the
     DUR program’s consulting pharmacist or physician. In recent months, the
     State has identified about 50 patient cases a month for this type of intervention.
     It selects the cases from its retrospective profiling efforts as well as from
     information generated by its pro-DUR help desk staffed by pharmacists. The
     cases typically will be those revealing some inconsistencies in the case
     management of patients; often they will involve patients who have visited
     multiple pharmacies and/or physicians, The conversations serve as a useful
     vehicle for obtaining feedback from providers, for clarifying drug therapies, and
     for conveying the priorities and concerns of the State DUR program.

     The Massachusetts DUR program has regularly used face-to-face meetings with
     providers. It routinely profiles physicians to identi~ those warranting a more
     personal educational intervention. The profiling focuses on their prescribing
     patterns in five therapeutic drug classes, such as anti-ulcer drugs, broad-
     spectrum antibiotics. The program then compares the individual’s prescribing
     patterns with expected patterns for each drug class. A personal intervention
     may be chosen for those who deviate from the expected pattern, who see a
     significant number of Medicaid patients, and whose prescribing patterns suggest
     that even small changes would significantly improve the quality and cost-
     effectiveness of their prescribing. Pharmacists working under contract with the
     DUR program conduct the “counterdetailing” visits. They completed about
     100 visits last year.




                                            16

Counseling patients in the pharmacy when they fill their prescriptions can be an effective
way to foster appropriate use of drugs. For that reason, most States have mandated
counseling and other pro-DUR requirements for all patients, 4 not just for Medicaid
beneficiaries as the Federal government requires. Yet pharmacists confront many
obstacles to providing counseling: insufficient patient information, difficulties
communicating with physicians, inadequate clinical pharmacy skills, and limited
reimbursement for clinical services.5 And State pharmacy boards, which typically monitor
compliance as part of their periodic on-site inspections, have dificulty verijjing whether
pharmacists are actual~ canying out the counseling requirements.

�	     Assessing Counseling Practices By “Shopping”. Pharmacy board inspectors in
       Washington “shopped” pharmacies to assess compliance. Presenting themselves
       as patients, the inspectors visited 108 randomly selected pharmacies to fill a
       prescription for an anti-hypertensive drug. Fifty-nine percent of the pharmacies
       provided these “patients” with either written or verbal information about their
       prescription. In half the pharmacies, the “patients” also purchased an over-the-
       counter asthma medication that is contraindicated for concurrent use with the
       anti-hypertensive drug. In these instances, about one in four pharmacies
       warned the “patients” against using the two medications together. The
       pharmacy board used the results as baseline data on counseling practices. The
       study also spurred the board and the pharmacists’ association to work together
       to identi& approaches for ensuring that pharmacists receive further training on
       counseling requirements and techniques.

F	     Surveying Practices By Mail. The Virginia DUR program surveyed a random
       sample of Medicaid pharmacy providers about clinical/cognitive services. The
       sumey was conducted in 1992 before implementation of the on-line, pro-DUR
       system. Thus, the survey provided useful information to the DUR program
       about the extent of prospective DUR services being offered across the State
       and about the obstacles hindering pharmacists from complying more fully with
       the requirements.

       The Colorado DUR program surveyed beneficiaries participating in the
       Medicaid Primary Care Physician Program. It posed questions concerning the
       type of pharmacies used by the beneficiaries and the nature of the services
       provided by pharmacists.

�	     Warning Violators.   Texas has been one of the few States to have taken more
       punitive actions against pharmacies for violations of counseling requirements.
       The pharmacy board issued nearly 100 warning notices last year for violations
       of rules governing prospective DUR. Inspectors noticed these violations during


                                              17
     the periodic, on-site inspections of pharmacies. Though these warnings have not
     been formal disciplinary actions, the pharmacies had to respond to the
     pharmacy board within 30 days about how the violations were to be corrected.
     The board, in turn, has followed up with unannounced visits to some violators
     to check whether they have come into compliance.

     The Texas pharmacy board follows a somewhat different process for those
     pharmacies for which it receives complaints about lack of counseling. In these
     instances, the board has sent the pharmacy a certified warning letter reminding
     the pharmacy/pharmacist of the pro-DUR and counseling rules. A second
     complaint triggers an investigation, which may involve an undercover operation
     in which investigators pose as patients. The board has initiated three
     disciplinary actions. One case resulted in a $1500 fine; two cases are pending.
     The board has said it is prepared to take stronger actions ranging from larger
     fines to possibly license suspensions or revocations.

F	   Sanctioning Pharmacies.    The Iowa pharmacy board formally sanctioned three
     pharmacies for reasons that include failure to provide effective counseling. It
     revoked the license of one pharmacy and closed another completely. Each case
     involved multiple violations of pharmacy and/or controlled substance laws,
     including a lack of counseling or inappropriate counseling. The board also
     levied two $25,000 fines on a single pharmacy. The first fine resulted from
     dispensing errors and lack of counseling and drug use reviews. The second fine
     resulted from the pharmacy having violated their probation from the first fine
     and for other dispensing errors. The pharmacy board has been pursuing
     sanctions against other pharmacies as well. These cases have come to the
     board’s attention through complaints from consumers and pharmacists.




                                          18

State agencies emphasize that DUR programs are intended to be educational in nature.
l%ey reinforce thk message in their interventions with individual providers identified for
some questionable practi”ce. They can convey this message as well through educational
outreach to the la~er communi~ of practicing physicians and pharmacists. Broadly
directed, proactive outreach can alert providers to potential problems in drug therapy,
provide them with information on how to address those problems, and, in so doing have
significant preventive value.

F	     Mailing Special Messages. Kentucky has been developing “Therapeutic
       Algorithms” with input from Medicaid physicians and pharmacists, academics,
       and professional organizations across the State. It recently sent to all Medicaid
       providers the first algorithm for treating acute urinary tract infections. The
       State views this process as an educational approach that can improve patient
       care and reduce Medicaid costs; use of the algorithms is not mandatory. Topics
       for these algorithms focus on diseases that affect many Medicaid beneficiaries,
       cost the program substantial sums of money, and reflect considerable variation
       in treatment approaches. Others will deal with pain management, otitis media,
       and hyperlipidemia. Outcome analyses will assess the effectiveness of this
       approach.

       Medicaid providers in Colorado received guidelines for evaluating and treating
       insomnia through the Medicaid Pharmacy Newsletter. The guideline described
       various behavior modification techniques, types of benzodiazepine drugs and
       their characteristics, and a process for discontinuing hypnotic therapy with a 6-
       week schedule for tapering dosages.

       Other States, including Virginia, Washington, and Pennsylvania, make regular
       use of newsletters/journals of the professional associations or the State
       Medicaid agencies themselves to make educational information broadly
       available to providers. These approaches target only Medicaid providers in
       some instances; in others, the publications reach a broader audience of
       associations’ members.

�	     Training and Consulting for Providers. Several States have been targeting
       special groups of providers for specific training on drug therapy issues.

          .	   The Pennsylvania Medical Society, under contract with the Medicaid
               agency, has been leading seminars for hospital staff in those areas of the
               State, such as Pittsburgh and Philadelphia; that have many Medicaid
               beneficiaries. It has also sponsored free, day-long seminars for


                                              19
             physicians onpresctibing therapies forminori~ patients. Some training
             activities are offered with Continuing Medical Education credits as
             incentives to physicians to participate.

        .	   Vermont has conducted special seminars for the residents in training at
             the University of Vermont Medical Center. The retrospective reviews
             were generating many alerts that the DUR staff were able to associate
             with the hospital’s residents. A DUR board member, who is also a staff
             pharmacist at the medical school, collects these alerts and periodically
             discusses them with the students.

        .	   Wisconsin has trained pharmacists and nurses in long-term care facilities
             about identification and treatment of depression in the elderly.

        .	   Pennsylvania operates a toll-free telephone line at the Medical Society
             for inquiries about drug therapies from providers. A clinical pharmacist
             is available for consultation as well,

F	   Cx.mnecti.ngThrough the Information Superhighway. At least two States are
     examining the potential for reaching large numbers of providers through
     automated information systems.

     Washington has long used an automated bulletin board system for

     communicating with Medicaid physicians; more recently it has been available to

     pharmacists. Listings include policy memoranda, billing instructions, physician

     provider numbers, the Medicaid drug formulary, and information on new drug

     products. Review criteria may well be added after they are updated in 1995.


     Iowa is exploring ways to tap into various telecommunications      systems

     available in the State. A state-wide, fiber optic network, capable of

     transporting interactive, two-way audio, video, and data signals, is now up and

     running for various educational purposes. And the University of Iowa, too, has

     a telemedicine capability that may be a cost-effective mechanism useful to the

     DUR program for sharing information with physicians and pharmacists across

     the State.





                                           20

      A relative~ limited knowledge base is available to he~ guide DUR boards and State
      ojficials. l%us, it is veiy important for States to incorporate applied research efforts into
      their DUR programs to help them operate efficiently and effectively. Ideally, results from
      research based on operating expen”encescould (1) inform deckions about criteria,
      screening strategies, interventions, and the like, and (2) ofler oppotiunities for
      disseminating and discussing the results with the professional communities.

      b	         Evaluating Screening Criteria.   Maryland uses its “DUR Analytic Reports” to
                 assess the effects of~ts pro-DUR sc~eening criteria. These reports focus on the
                 frequency of criteria ex~eptions over a 10-~3 month period. First the
                 exceptions are aggregated by drug class (e.g., H2-receptor antagonists) and
                 then, within each drug class, criteria element (e.g., therapeutic duplication,
                 adverse drug-drug interactions, etc.). The data are presented in tables and
                 graphs together with a narrative that highlights concerns and recommendations
                 for action (see box for excerpts from one report).


           DUR ANALYTICREPORT                                               ANGIOTENSIN CONVERTING
           NOV 93- AUG 94                                                   ENZYME INHIBITORS         (ACEJS)


                                         criteria                  Total       Total #     Exceptions
                                                                        #     l&ceptions    per 100 Rx
                                                                   I&
                            Drug-drug               all ACEIs      94,831          2,096       2.21
                           interaction
                             lithium                benazepril      2,135            103       4.82




                    m                               ~z            :::              “::         ::-

           RECOMMENDATIONS:
             o      The criteria “K+ supplements without K+ wasting diuretics” is not implementable by
           prospective DUR. A message could be added to a “K+ supplement” criteria that states “check to
           be sure patient is also taking a K+ wasting diuretic” or, alternatively, this criteria element could
           be ‘Witched off.”

             o       Finally, benazepril occurs as an outlier in virtually every criteria element (Note: not all
           criteria included here) analyzed.. .All benzepril criteria should be checked to ensure correct
           implementation and to determine if there is something specific about benazepril that would make
           its use unusual when compared to other ACE inhibitors.




                                                                 21



———
     The DUR board relies on these “Analytic Reports” when deciding whether or
     not to change the criteria, whether to modify their implementation, or whether
     to pursue educational interventions with providers.

�	   Assessing Alerts by Practice Setting. Iowa’s Drake University used DUR data
     to examine therapeutic screen failures by geographic location of the prescriber.
     The profiles from a group of prescribers whose drug regimens failed the
     computerized therapeutic and utilization criteria screens were compared with a
     control group of prescribers whose profiles passed the screens. The study
     concluded that prescribers located in more rural settings were more likely to
     fail the criteria screens and that patients in nursing homes were more likely to
     receive inappropriate prescriptions.

�	   Identi&ing Physician Preferences.  The Pennsylvania Medical Society, under
     contract with the Medicaid agency to run the educational component of the
     DUR program, spent its first year researching the views of practicing physicians
     across the State. It conducted nearly a dozen focus groups and surveyed nearly
     3,000 randomly selected physicians. The Society asked physicians for
     suggestions and ideas about how it could best convey information about
     appropriate drug therapies, how it could intervene effectively with them, and
     which topics and therapies were of most interest to them. This research
     informed the strategies developed for the DUR educational program.

�	   Examinkg the Effectiveness of Interventions. One research project in
     Colorado focussed on approaches for improving physicians’ awareness of the
     costs of various nonsteroidal anti-inflammatory drugs (NSAIDS), commonly
     used for treating arthritis. The goal was to increase the use of the low-cost
     NSAIDS in uncomplicated cases. The intervention group of physicians received
     letters together with individual practice profiles, comparison data with peers,
     and cost information for the various NSAIDS. The control group of physicians
     received no information on their NSAID prescribing. The follow-up analysis
     indicated that the intervention group reduced the cost of their NSAID therapy
     more than did the control group. Researchers concluded that receiving
     detailed information was a significant influence in changing physicians’
     prescribing practices.

     Wisconsin evaluated the effectiveness of letters with different provider groups
     in reducing the use of an antiplatelet agent. Researchers sent letters to
     physicians only in one group, to pharmacists only in a second group, and to
     both pharmacists and physicians in a third group. Post-intervention analysis
     compared outcomes among these groups and with a control group who had no
     intervention. The research confirmed that sending letters to both physicians
     and pharmacists was significantly more effective in reducing use of the
     antiplatelet agent than sending letters only to physicians or to pharmacists.




                                          22

MAJOR                 CHALLENGES   FACING                                  STATE
                        DUR PROGRAMS

one of the often-mentioned tenets of American federalism is that State governments
can serve as laboratories for experimentation. This certainly has been the case for
State DUR programs, Moving ahead in largely uncharted territory, States have been
crafting many different approaches to DUR and have been learning from their
experience. Through this report, we attempt to increase awareness of some of the
major lessons they have learned.

We can not close, however, without also discussing some concerns we have identified
about the current state of DUR programs. In so doing, we draw on our considerable
experience in examining DUR issues over many years and, more specifically, on
obse~ations we made and comments we heard during our inquiry for this study. We
raised these concerns at a recently held symposium on Medicaid DUR issues that
involved representatives from most States and received considerable feedback
reinforcing their importance.G They present challenges that, if not addressed
adequately by State and Federal leadership, could undermine the effectiveness of
DUR programs in the years ahead. We present them here, in the form of questions,
with the intent to stimulate thinking about how they might be constructively addressed.

Privacy safeguards.

  ti   Do the programs ~“veadequate attention to privacy safeguards?

The widespread use of electronic claims data by Medicaid DUR programs raises
major questions concerning the collection, management, and disclosure of such data.
How much and what kind of data can be collected on beneficiaries? Who can have
access to such data and under what conditions? What safeguards are necessary to
prevent unauthorized access? Such questions were beginning to gain major attention
in 1989 as the Federal government was preparing to implement the (subsequently
terminated) Medicare DUR program.7 As Medicaid DUR programs gain momentum
and visibility, the very same questions are likely to surface.8 And many do not seem
to be adequately prepared. The kind of controversy that can easily arise through the
development of electronic data bases is illustrated in a recent Boston Globe story with
the headline: “HMO puts confidential records on-line: Critics say computer file-
keeping breaches privacy of mental health patients.”9

Protection of poor performers.

  ~	   Does the educational focus of the programs unnecessari~ inhibit efforts to protect
       beneficiaries from poorly performing providers?


                                            23
State DUR programs stress what they can do for providers, not to them. This
approach, they hold, is more likely to generate improved performance than is a
punitive one. Accordingly, when they identify questionable prescribing or dispensing
practices, their subsequent contact with the provider is almost always strictly
informational, with no follow-up action actually required of the provider. On rare
occasions, when a particularly egregious practice is identified, the DUR program will
refer information on the provider to a State medical or pharmacy board or to the
Surveillance and Utilization Review component of the Medicaid agency.

But what happens when serious questions are raised about a provider’s knowledge
base and/or practice skills, but they are not serious enough to call for referral for
possible disciplinary action? The DUR programs appear to devote little attention to
crafting responses tailored to such situations. They could, for instance, require a
provider to take certain remedial actions, such as participating and satisfactorily
completing a course addressing proper prescribing or dispensing practices. This kind-
of mid-range response, which is essentially educational in nature, would help protect
patients from poor care and, from the providers’ perspective, would still be
educational in nature.

Education of patients.

  �   Are the programs su.ciently   focused on patient education?

In a far-reaching survey on the future of medicine, The Economist recently concluded
that patients are beginning to assume control over the health care system.l” As
medical and information technology continue to develop, the traditional authority of
health care professionals is diminishing and patients are gaining influence over
decisions concerning their medical care. State DUR programs, however, pay little
attention to this significant transformation. Their educational efforts, in accord with
Federal direction, focus almost strictly on physicians /and to a lesser degree on
pharmacists. The challenge of helping patients become more informed participants in
their own drug therapy is seldom addressed. The time seems to be right to examine
this situation and to search for ways of incorporating patient education as an
important component of DUR programs.

Dependence on vendors.

  ~   Are the programs too dependent on the vendors serving them?

The intent here is not to dismiss the contributions of vendors carrying out contracts
with State DUR programs. They provide valuable expertise, much of it of a highly
technical nature, to nearly all aspects of the DUR programs. But an outside observer
can not help but notice that often the State agencies lack the internal expertise to
ensure that the work of the vendors is being tailored to the particular needs of the
States. As a result, important decisions about the development and use of criteria,
about the nature and scope of interventions, and about the thrust of educational


                                           24
initiatives are sometimes being left to vendors. In some States, the DUR boards seem
to provide some of this leadership, but typically their participation is too infrequent
(often only quarterly meetings) to play more than an advisory role.

Problems with Medicaid claims data.

   �	   Do inaccuracies and omissions in the Medicaid claims data bases serve as a
        significant constraint to the programs?

Unquestionably, problems with the accuracy and completeness of data often limit the
effectiveness of DUR programs. We heard reference to them in just about every
State we contacted. How extensive and consequential the problems are, however, is
unclear. We did hear that one large State has not been sending out any intervention
letters to providers identified through its retrospective screening process because of
concerns about the accuracy of the claims data being screened. For the most part, the
concerns that State officials cited about accuracy focused on improperly coded
diagnostic information. But they also pointed to an array of other inaccuracies
concerning data provided on such important matters as provider number, provider
specialty, drug code, and Drug Enforcement Administration number. In some cases,
such inaccuracies existed alongside significant omissions in the claims data submitted.
For instance, one State reported that about one-third of its pharmacy claims being
submitted were missing a physician provider number.11

Validity of cost savings estimates.

  �     Are the programs claiming cost savings that rest on weak foundations?

Documenting cost savings is an essential element of DUR programs. The HCFA, in
accord with congressional requirements, calls for cost savings to be included in the
States’ annual DUR reports. More significantly perhaps, State governments, in their
quest to contain escalating Medicaid costs, look to the programs to contribute to cost
savings and to document their success in doing so. Other than on the most obvious
kinds of matters, such as eliminating a duplicate prescription, the job of developing
sound estimates, particularly with little data available linking DUR interventions to
medical outcomes, is highly complex and resource intensive. Yet, this does not lessen
the imperative to arrive at such estimates. What happens, therefore, is that States
often claim savings associated with their prospective DUR alerts to pharmacists or
their retrospective interventions to physicians that fail to take into account indirect or
deferred costs associated with a reversed drug claim or a changed prescribing practice.
The HCFA has recognized the vulnerability of this situation and has helped to address
it by supporting the development and distribution of a set of guidelines on estimating
the impact of DUR efforts.12 But the situation remains one that can offer
misleading indications of the impact of DUR programs,




                                            25

Bakmee between cost and quality.

  �    Are the cost-saving and quality-of-care objectives of the programs in balance?

Saving costs is a vital component of DUR programs. So, too, is improving drug
therapy. It is certainly possible that DUR initiatives can help contain costs as they
improve drug therapy. Many appear to be developed with this intention. Yet, in
devising DUR efforts, choices are made that weight the emphasis given to the
respective objectives. These are reflected in decisions on what drug use criteria to
develop, what ones to apply in the screening process and how often, and what degree
of specificity to use in applying the criteria. What may seem to be mundane decisions,
often shrouded in the complexities of computer algorithms, can, in fact, involve
significant choices on DUR objectives. Given the cost pressures noted earlier, the
cost-saving objective surely looms large in this process. The concern here is not
necessarily that quality will be sacrificed. We saw no such indications. More possible,
perhaps, is that providers and patients will come to perceive DUR programs primarily
as mechanisms to contain costs and only secondarily to foster more effective use of
prescription drugs. As an example, prospective DUR programs that trigger alert rates
of close to 20 percent for pharmacy claims can clearly contribute to this perception.


Implications of managed care.

  b	   Are States developing a DUR injiastructure that will become increasingly irrelevant
       as Medicaid managed care enrollment escalates?

Medicaid managed care enrollment is rising sharply. From 9.5 percent of the eligible
population in June 1991, it increased to 23.2 percent in June 1994. Given the high
level of interest in managed care and the Federal waivers facilitating Medicaid
enrollment in managed care, the proportion almost certainly will continue to rise; by
the year 2000 it could reach about 50 percent of the eligible population.13

Thus far, State DUR programs have given little attention to the implications of this
trend for their own efforts. But the implications are profound and warrant immediate
consideration. Many of the managed care plans include prescription drug coverage.
As Medicaid beneficiaries join such plans, they are, in effect, lost to the DUR
program, with the plan assuming the responsibility (and risk) for cost-effective drug
therapy. This development could, in fact, allow for improved drug utilization review,
more effectively tied in with overall medical care. Managed care, in short, is not
necessarily in conflict with good DUR. But State DUR programs appear to have little
understanding of the nature and scope of the drug utilization review that occurs under
the auspices of managed care organizations (MCOS). Some States are moving in the
direction of asking MCOS for drug encounter data. But such efforts have barely
begun and here, too, there is little understanding of whether they are likely to be
effective.



                                            26

                           APPENDIX                  A


                                       NOTES




1.	   Public Law 101-508, November 5, 1990, (Omnibus Budget Reconciliation Act of
      1990).

2.    Our studies on pharmacy issues include:

            Medicare Drug Utilization Review, (OAI-01-88-00980), April 1989.

            ti”vacy Implications of the Medicare prescription Drug Benefitk Electronic
            Claims Processing System: A Management Adviso~ Repoti,
              (OAI-01-89-89170), April 1989.

            Physician Drug Dkpensing: An Overvi@v of State Regulation,
             (OAI-01-88-00590), May 1989.

            State Disc@line of Pharmacists, (OAI-01-89-89020), July 1990.

            Symposium on Drug Utilization Review Issues: Proceedings,
             (HHS-1OO-89-OO21),August 1990.

            Symposium on Drug Utilization Review Issues: Summa~ Report,
             (OEI-O1-89-89O1O), August 1990.

            l%e Clinical Role of the Community Pharmacist, (OEI-01-89-89160),
             November 1990.

            The Clinical Role of the Communi~ Pharmacist: Case Studies,
             (OEI-01-89-89161), November 1990.

            Promotion of Prescription Drugs Through Payments and G@s,
             (OE1-01-90- 00480), August 1991.

            Point-of-Service Claims Management Systems for Medicaid,
             (OEI-01-91-00820), May 1992.

            prescription Drug Advertisements in Medical Journals,
             (OEI-01-90-00482), June 1992.




                                       A-1

             Prescription Drug Promotion Involving Payments and Gijs:     Physicians’
              Perspectives, (OEI-01-90-00481), July 1992.


3.    Ina 1994 report, Health Systems Research pointed out the considerable
      variation that exists in the scope, detail, and relationship of DUR criteria to the
      scientific literature. It also noted that State officials and DUR board members
      often “know very little about the quality of the DUR criteria used in
      prospective and retrospective DUR interventions.”         See Health Systems
      Research, Recommendations for Improving the Quality and Effectiveness of State
      Medicaid Drug Utilization Review Activities, a paper submitted to the Office of
      Medicaid Management, Health Care Financing Administration, February 28,
      1995.

4.    National Association of Boards of Pharmacy, Patient Counseling Requirements,
      Park Ridge, IL, 1993.

5.    See OIG, l%e Clinical Role of the Community Pharmacist,

6.    American Drug Utilization Review Symposium, San Antonio, Texas,
      February 16-19, 1995.

7.    We addressed raised and addressed these questions in an earlier report. See
      OIG, fi”vacy Implications of the Medicare Prescription Drug Benefit’s Electronic
      Claims Processing System: A Management Advisory Report.

8.    Section 456.703 (h) of 42 CFR 456 calls for States to establish policies on

      confidentiality of patient-related data that are consistent with Federal

      confidentiality requirements, State pharmacy practice acts, and State pharmacy

      board guidelines. And Section 5350 of the State Medicaid Manual issued by

      the Federal government stipulates that the “use or disclosure of information

      concerning applicants and recipients is restricted to purposes directed related to

      administration of the title XIX State plan.” These instructions provide some

      guidance to States, but sill call for much interpretation as States rely

      increasingly on electronic claims information.


9.    Boston Globe, March 7, 1995. The visibility generated by the newspaper

      coverage led the medical director of the HMO cited to offer the following

      comment: “We may well need to change our guardrail around patient

      confidentiality. Regardless of what our doctors think they need to know, we

      have to pay attention to what our patients want them to know.” Boston Globe,

      9 March 1995.


10.   “A Survey of the Future of Medicine,” The Eeonornis~ 19 March 1994,

      pp. 1-18.





                                         A-2
11.	   An early 1994 review of State DUR programs conducted for HCFA also raised
       questions about the quality of data available for DUR programs, Its focus,
       however, was on the quality of data available to evaluate the performance of
       the programs. See Elizabeth Donnelly Appel, Health Systems Research,
       Recommendations for Improving the Quality and Effectiveness of State
       Medicaid Drug Utilization Review Activities, February 28, 1994, p. 5.

12.	   David Zimmerman, Ted Collins, Earlene Lipowski, David Kreling, and Joseph
       B. Wiederholt (Consultants to Shepard Patterson, Inc.), Guidelines for
       Estimating the Impact of Medicaid D~     (Contract #500-93-0032),
       August 1984.

13.	   Lee Partridge, “Medicaid and Managed Care,” Washington Memo, American
       Public Welfare Association, February 1995, pp. 13-20.




                                       A-3

